@OCKLE

L eg al Brie fs E-Mail Address:

2311 Douglas Street
contact@cocklelegalbriefs.com

Omaha, Nebraska 68102-1214
Est.1923

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 19-1201

CLAY BRIGHT, COMMISSIONER OF TENNESSEE
DEPARTMENT OF TRANSPORTATION,
Petitioner,
v.
WILLIAM HAROLD THOMAS, JR.,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the RESPONDENT’S
SUPPLEMENTAL BRIEF in the above entitled case complies with the typeface requirement of
Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and
10 point for the footnotes, and this brief contains 2375 words, excluding the parts that are

exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 23rd day of June, 2020.
Iam duly authorized under the laws of the State of Nebraska to administer oaths.

pre | Kone. 0. Yoo? Oudew-h, Cle

Affiant 9909

My Comm. Exp. September 6, 2023

Notary Public

 
